<html>
<title> - COAST GUARD LAW ENFORCEMENT</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       COAST GUARD LAW ENFORCEMENT

=======================================================================

                                (109-23)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 15, 2005

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
22-502                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)

  


        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,Vice-  California
Chair                                MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Sirois, Rear Admiral R. Dennis, Assistant Commandant for 
  Operations, United States Coast Guard..........................     3

              PREPARED STATEMENTS SUBMITTED BY THE WITNESS

 Sirois, Rear Admiral R. Dennis..................................    22


                      COAST GUARD LAW ENFORCEMENT

                              ----------                              


                        Wednesday, June 15, 2005

        House of Representatives, Subcommittee on Coast 
            Guard and Maritime Transportation, Committee on 
            Transportation and Infrastructure, Washington, 
            D.C.
    The subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2167, Rayburn House Office Building, Hon. David G. 
Reichert presiding.
    Mr. Reichert. The subcommittee will come to order.
    The subcommittee is meeting today to hear testimony on 
Coast Guard law enforcement; and, as you know, we will limit 
opening statements to the vice chairman and ranking Democratic 
member. If other members have statements, they can be included 
in the hearing record.
    The subcommittee is meeting this morning to oversee the 
Coast Guard's maritime law enforcement missions.
    Current law provides that the Coast Guard has broad 
authorities to enforce or assist in the enforcement of 
applicable laws on, under and over the high seas and waters 
subject to the jurisdiction of the United States. Under the 
Coast Guard's maritime law enforcement mission, the Service 
regularly enforces fisheries laws in U.S. Waters and prevents 
illegal drugs and illegal immigrants from entering the United 
States by sea.
    In fiscal year 2004, the Coast Guard intercepted more than 
176 tons of cocaine and nearly 13 tons of marijuana at sea. 
Already this fiscal year, Coast Guard missions have resulted in 
the seizure of more than 96 tons of cocaine and marijuana and 
the destruction of a substantial amount of illegal drugs that 
were jettisoned by drug smugglers at sea. These missions are 
instrumental in stemming the tide of illegal drugs that enter 
into the United States.
    In recent years, the Coast Guard has developed several 
specialized units to intercept drug smugglers at sea. The Coast 
Guard has formed a Helicopter Interdiction Tactical Squadron, 
HITRON, that patrols areas in the Caribbean sea and the Eastern 
Pacific ocean in conjunction with the Coast Guard cutters. The 
Coast Guard has estimated that the HITRON squadron has been 
responsible for intercepting approximately 8.5 tons, or $6 
billion, worth of drugs from entering the United States.
    I understand that the Coast Guard's fleet of HH-65 and HH-
60 helicopters will be fitted under the Deepwater program with 
the equipment necessary to carry out these drug interdiction 
missions at sea. I am looking forward to hearing how these 
improved assets will enhance the Service's ability to intercept 
drugs Nationwide.
    In addition to the Service's drug interdiction mission, the 
Coast Guard regularly carries out alien migrant interdiction 
missions and fisheries law enforcement missions abroad aboard 
its many cutters. These missions enforce national immigration 
laws and protect the Nation's valuable natural resources in the 
U.S. Economic Exclusive Zone.
    However, despite the importance of the Coast Guard's law 
enforcement missions, I am concerned by the recent trend in 
resource hours that are being devoted to the Service's drug 
interdiction, alien migrant interdiction and fisheries law 
enforcement missions. A GAO report last year revealed that 
resource hours devoted to illegal drug interdiction, living 
marine resources and foreign fishing enforcement had been 
reduced by 44 percent, 26 percent and 16 percent respectively. 
As a result, I look forward to hearing the testimony this 
morning regarding the Coast Guard's plans to maintain a true 
mission balance between its many and varied missions in this 
time of increasing maritime homeland security needs.
    I also look forward to hearing the Coast Guard's plans 
under the Deepwater program to acquire vessels and aircraft 
with the equipment necessary to enhance the Service's ability 
to carry out these law enforcement missions and other 
traditional homeland security missions.
    I thank the witness for appearing before the subcommittee 
this morning. I look forward to his testimony.
    I now recognize the ranking Democratic member, Mr. Filner, 
for his statement.
    Mr. Filner. Thank you, Mr. Chairman.
    Mr. Chairman, I think it is very appropriate that in this 
hearing on law enforcement we have the former Sheriff of King 
County, Washington, with us. We thank you for your long service 
in this area, and we hope you can add your expertise to this. 
We thank you for chairing this.
    I would like to welcome the young people who just walked 
in. Where are you from?
    Voice. California.
    Mr. Filner. What part?
    Voice. L A.
    Mr. Filner. Mr. Honda is here from San Jose, and I am here 
from San Diego, so we have some Californians here with you as 
we start here today.
    Clearly the issue of law enforcement and the Coast Guard is 
an important issue. We know that the traditional role of the 
Coast Guard as it enforces fishery laws, for example, secures 
our coastline from drug smugglers and illegal migrants, but 
adding the homeland security responsibility is, of course, 
exceedingly important today.
    As the chairman mentioned, the Coast Guard has been 
increasingly effective in stopping cocaine from reaching our 
streets. And, again, the chairman pointed out the effectiveness 
of the HITRON helicopters; and I hope we can, as a committee, 
continue to support the use. As you know, this committee 
authorized funds to deploy another squadron, Mr. Chairman, on 
the west coast of the United States of those helicopters that 
have done so well in intercepting cocaine; and I hoped that we 
could get a west coast squadron maybe halfway between 
Washington and San Diego just so we could get your support for 
that, that is, stopping drug runners in the Pacific ocean.
    Equally, this committee has expressed concerns about the 
Deepwater program as it deals with law enforcement. It seems to 
have changed from a program to get the best new ships and 
aircraft for the men and women of the Coast Guard into a 
program that seems to rely heavily on rebuilding old aircraft, 
and this committee and this Congress needs to ensure that the 
men and women who risk their lives every day to save others and 
to enforce our laws have the best equipment possible.
    So I am looking forward to the hearing, Mr. Chairman. Thank 
you for being here. Let us work together to see that we have 
the security that we need. Thank you, Admiral, for being here 
with us today.
    Mr. Reichert. Thank you, Mr. Filner.
    Mr. Reichert. Now I will introduce our witness, Rear 
Admiral Dennis Sirois, Assistant Commandant for Operations for 
the U.S. Coast Guard. Welcome, sir.

     STATEMENT OF REAR ADMIRAL R. DENNIS SIROIS, ASSISTANT 
      COMMANDANT FOR OPERATIONS, UNITED STATES COAST GUARD

    Admiral Sirois. Thank you, Mr. Chairman and distinguished 
members of the committee. It is a pleasure to appear before you 
today to talk about Coast Guard law enforcement missions.
    I ask that my written statement be entered into the record, 
and I will summarize with a short statement.
    As the lead Federal agency for maritime drug interdiction, 
the Coast Guard seeks to reduce the supply of drugs to our 
streets by denying smugglers the use of air and maritime routes 
throughout the 6 million square mile transit zone in the 
Caribbean, Gulf of Mexico and the Eastern Pacific. As noted, in 
fiscal year 2004 the Coast Guard disrupted the supply of nearly 
160 metric tons of cocaine destined for the United States. In 
pounds, that is 350,000 pounds of cocaine.
    Increasing interdepartmental, interagency and international 
coordination in intelligence and information sharing and 
enhanced capabilities have played a vital role in our recent 
successes.
    Operation Panama Express, which is a Department of Justice 
led and Department of Homeland Security supported operation in 
Tampa, Florida, generates a tremendous amount of actionable 
intelligence on trafficking organizations and routes. This 
intelligence enabled a higher rate of success for interdiction 
assets from the Coast Guard, Navy and other partner agencies.
    Enforcement of immigration law at sea is another primary 
mission of the Coast Guard. We work very closely with other 
agencies and foreign governments to deter and interdict 
undocumented migrants, denying them entry via maritime routes 
into the U.S..
    We maintain an effective presence at key choke points along 
migrant smuggling routes. In fiscal year 2004, the Coast Guard 
successfully deterred or intercepted more than 87 percent of 
the undocumented migrants attempting to enter the United 
States. A total of 10,899 migrants were interdicted by the 
Coast Guard last year, the largest number in over a decade.
    Protection of all living marine resources is carried out 
through the enforcement of domestic fisheries law and by 
protecting the U.S. Exclusive Economic Zone from foreign 
encroachment. The U.S. EEZ is the largest and most productive 
in the world, covering nearly 3.4 million square miles of 
ocean. Enforcement throughout such a vast area is a mission 
largely conducted by Coast Guard Deepwater assets. The Coast 
Guard is the only agency with the authority, infrastructure and 
assets able to project a Federal law enforcement presence over 
this area.
    At-sea boardings are used to ensure compliance with our 
Nation's fisheries and management plans. The Coast Guard 
partners with industry, Federal and State agencies to collect 
and share enforcement information. The Coast Guard boarded over 
4,500 fishing vessels in fiscal year 2004.
    Foreign fishing vessel incursions into the U.S. EEZ 
threaten to undermine the Nation's fisheries management regime 
and the U.S. Commercial fishing industry. The highest threat 
areas for incursion are the U.S.-Mexican border in the Gulf of 
Mexico, the U.S.-Russian maritime boundary line in the Bering 
Sea, and the Western/Central Pacific EEZ border. Interception 
continues to be a significant deterrent to illegal fishing. 
However, limited operational presence constrains our ability to 
intercept foreign fishing vessels in our remote EEZs.
    The Coast Guard is working with the National Oceanic and 
Atmospheric Administration and the State Department to pursue 
an enforcement agreement with Mexico and to develop a U.S.-
Russia ship rider agreement to aid EEZ enforcement in the 
Bering Sea.
    Of note, along the U.S. Mexican border and the Gulf of 
Mexico we have been receiving increasing intelligence that ties 
Mexican fishing launch activities with organized crime elements 
and smuggling operations.
    The Coast Guard's Ports, Waterways and Coastal Security 
mission has continued to evolve as our understanding of the 
threat, vulnerability, and consequence dimensions of terror-
related risks improves. We now have 13 maritime safety and 
security teams in or near critical ports throughout the Nation. 
These specially trained teams augment existing Coast Guard 
forces to perform surge operations in support of Ports, 
Waterways and Coastal Security; Anti-Terrorism; Counter-Drug 
and other law enforcement missions.
    The success of the Coast Guard law enforcement missions 
have not come without their share of challenges. We are working 
our assets and our crews harder than ever. The President 
addresses capacity and capability improvements for the Coast 
Guard in his fiscal year 2006 budget request, which I ask you 
to support. Deepwater, our plan for major assets 
recapitalization, and network centric conductivity has never 
been support relevant; and I ask for your support for the 
President's request.
    I know that you and many others are concerned that, because 
of our increased homeland security missions, that many of our 
traditional missions have not have had the same level of effort 
since 9/11, although we concentrate on performance outcomes 
versus level of efforts, but I am happy to report to you that 
for fiscal year 2005 we are approaching the same level of 
effort previous 9/11. I just recently signed out our mission 
planning guidance to our operational planners that our level of 
effort for fiscal year 2006 will be at or above pre-9/11 levels 
of effort in all of our areas.
    Thank you for the opportunity to testify before you today. 
I will be happy to answer any questions you may have.
    Mr. Reichert. Thank you, Admiral.
    I was a sheriff in King County, as Mr. Filner said, just up 
until January 3 of this year. It is a force of 1,100 employees. 
One of the things I understand is the budget begins to get a 
little tight and your mission changes and after September 11 
changes in your focus and how you have to distribute your 
resources and then also look at the outcome.
    I appreciate you sharing some of that with us, just to get 
a little bit more specific on how you are accomplishing that 
mission and if your outcome is equal to or may even exceed pre-
9/11 numbers.
    As we said earlier, the Coast Guard has taken on 
substantial responsibilities to protect the Nation's maritime 
homeland security, in addition to the responsibilities of 
carrying out the Service's many traditional missions that you 
spoke of. As a result, resource hours for the Service's 
traditional missions, including law enforcement missions, have 
been reduced from pre-9/11 levels. Despite these reductions, 
the Coast Guard has maintained mission performance at similar 
levels to those observed prior to September 11. How do current 
resources hours devoted to law enforcement missions compare to 
pre-September 11 levels?
    Admiral Sirois. For fiscal year 2005, for drug interdiction 
we are about 4 percent short of pre-9/11 numbers. Now all these 
hours are apportioned. They may not be used the same way as we 
go through the year because we apportion, we use our assets 
depending on the threat and the situation.
    For migrants operations, we are going to be at 108 percent 
of our pre-9/11 numbers.
    Our Ports, Waterways and Coastal Security mission, which is 
our port security mission, is not new, but its increased 
emphasis since 9/11, we will be at 1,538 percent of our pre-9/
11 resources hours.
    All these increases are attributable to the fact that the 
administration has requested and the Congress has supported 
many, many new small boats to the Coast Guard inventory, many 
new parole boats in the Coast Guard inventory, the transfer of 
five Navy 179-foot patrol boats to the Coast Guard inventory. 
Those smaller boats have taken up a lot of the work that we 
pulled large cutters in close to shore to do just after 9/11.
    Mr. Reichert. Do you have a count on the number of 
boardings compared to pre-September 11?
    Admiral Sirois. Is that fisheries boardings?
    Mr. Reichert. Fisheries boardings or drug interdiction 
boardings, either.
    Admiral Sirois. The fisheries boardings are close to pre-9/
11 numbers. I can give you the exact number later. But I do not 
have the drug enforcement boarding numbers.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] T2502.001
    
    Mr. Reichert. We happen to be one of the cities that have 
one of your special teams in Seattle, and we appreciate the 
presence there.
    With the increasing number of maritime homeland security 
responsibilities and expanding readiness gap due do increasing 
legacy asset failure, how does the Coast Guard propose to 
maintain the mission performance for the Service's traditional 
law enforcement missions?
    Admiral Sirois. We have a number of programs in place to 
extend the service lives of our major cutters. For our 210-foot 
cutters and our 270-foot cutters we have a mission 
effectiveness program that we will be putting in place. We have 
major subsystems on those assets that are failing very quickly, 
so we plan on recapitalizing those major subsystems over the 
next 2 to 3 to 4 years to extend the service life of those 
cutters until we can replace them with the new Deepwater 
cutters.
    Our patrol boats are also going to undergo a major 
sustainability rework to extend the service lives of those 
patrol boats. We also hope to accelerate the acquisition of our 
new fast response cutter, our new parole boat, by 10 years in 
the Deepwater program.
    On the aviation side of the house, we have begun re-
engining our H-65 fleet. We have five of them already 
completed. One air station, Atlantic City, New Jersey, has a 
complete set of new re-engined aircraft.
    Mr. Reichert. Thank you.
    Mr. Filner.
    Mr. Filner. Thank you, Mr. Chairman.
    I guess from the questions that the chairman asked and as I 
read your statement, you want to say, on the one hand, you are 
doing better than you ever have before. On the other hand, you 
want to say everything is breaking down. It seems to me you 
ought to take one or the other and go with it. How do you 
account for this paradox?
    Admiral Sirois. The cutters are not in the condition that 
we would like them to be; and we know, like last year, we lost 
393 days of patrol days due to unscheduled maintenance. We 
should not be losing.
    Mr. Filner. So you are not doing the best job you could do.
    Admiral Sirois. No, sir
    Mr. Filner. For example, you estimate here you got 87 
percent of attempted illegal entrants. I do not know how you 
get that percentage. How do you know who you missed? How do you 
estimate that?
    Admiral Sirois. There is an estimated flow based upon 
intelligence, information.
    Mr. Filner. I represent the whole California-Mexico border. 
We have hundreds of thousands of people per year coming through 
illegally, aside from just in my district, 50, 60 million 
legally. So it is hard to estimate, of course, how many you do 
not get. But 10,000 in my book is pretty small, given how many 
people do come through just in my district every day.
    You used to estimate the percentage of drugs that got 
through. Do you still have an estimate of that? I did not see 
it in your statement.
    Admiral Sirois. Yes, sir. That is equally as hard to 
estimate how much is flowing. I think our last estimate was 
that we interdicted 15 percent of the estimated flow. That is 
15 percent of the noncommercial maritime flow.
    Mr. Filner. Fifteen percent. Let's see, can you extrapolate 
that to WMDs? I mean, if we had that rate of success, we would 
be in big trouble. How do you translate that kind of percentage 
and your readiness gap that you talk about here to problems 
with terrorism?
    Admiral Sirois. Sir, it is a huge ocean.
    Mr. Filner. If we are only getting X percent of whatever, 
that is quite a threat to the United States.
    Admiral Sirois. Yes, sir.
    Mr. Filner. It seems to me we ought to be talking more 
about that than how many immigrants you got or cocaine pounds 
you got. We still have major problems in those two areas but 
certainly with the potential terrorism. And with your--the 
readiness, you mention readiness gap, do you not? Is that what 
you call it? We used to have a President who ran on that thing, 
readiness gap. It is like a missile gap we used to have.
    If we have this readiness gap in your operations and we are 
trying to prevent another attack on the United States, how are 
we going to do that? I do not get it from your own words here.
    Admiral Sirois. Well, our readiness certainly is not where 
we would like it to be; and we are working hard to, as I said, 
fix the major systems, subsystems, on our major cutters, re-
engine our helicopters to get them to the readiness status we 
would like them to be.
    Mr. Filner. If you extrapolate, if you close that readiness 
gap and you are getting this much drugs and this much 
immigrants, what is the optimal operation if you were able to 
close that gap? I mean, what percentage would you be stopping 
or how secure would we be as a nation?
    Admiral Sirois. In the counter-drug arena?
    Mr. Filner. It seems to me we are talking about little 
issues in here in your report. I am talking about WMDs, and you 
are talking about a couple of cutters. I think we have a major 
problem, and I think you have got to talk in bigger terms.
    I mean, are we adequately funding the Coast Guard and the 
assets that it needs? Are we adequately patrolling the water 
off the United States? These are big issues. They probably 
require a lot of money. And it seems to me we have got to talk 
in these bigger terms than you are doing here today with us.
    Admiral Sirois. The key is intelligence. In the 
Commandant's maritime domain awareness effort, we will never 
have enough resources to blanket the coast. We have 95,000 
miles of coastline. We will never be able to do that. So the 
key to this is intelligence and information sharing. We are 
working very hard with our partners in the Department of 
Homeland Security and the Department of Justice and the 
Department of Defense to get as much visibility on activities 
in the maritime arena as we can, because we know we will never 
have the assets.
    Mr. Filner. I just would like to see us talk more about 
what do we need to achieve the optimal performance from the 
Coast Guard, given the fact that somebody said we have to be 
right 100 percent, a terrorist only has to be right one time. 
It seems to me we need a far broader discussion of that than we 
are getting here today, Mr. Chairman.
    Mr. Reichert. Thank you.
    I just have a question along the same lines. Of course, you 
have all of the responsibilities that you have just described; 
and Mr. Filner sees a conflict between trying to accomplish 
your traditional role versus your homeland security new role 
that you now have taken on. You mention one thing I think is 
very important, increased intelligence. I hope there is a 
concerted effort in gathering intelligence and working with the 
Navy, the Army and the other services that you are partners 
with.
    Also technology. You have not touched on technology at all, 
at least that I have heard this morning; and I would guess that 
is a part of our overall plan, too, in helping you accomplish 
these jobs, these new responsibilities that you are about to 
undertake and that you have undertaken.
    Then the question really I have is what is the connection, 
if any, you see between your traditional role as far as doing 
your job and the performance of drug interdiction and illegal 
immigration, what is the connection to homeland security? As 
you do those jobs, are you finding intelligence that you gather 
in your daily responsibilities that apply to homeland security?
    Admiral Sirois. Well, in the intel arena, you know, we are 
a new member of the intel community for several years now. We 
have stood up maritime intel, fusion centers on the Atlantic 
and the Pacific. We have also deployed field intelligence 
support teams throughout the country. These are down at the 
port level, very tactical level, people, human intelligence 
working the ports and supplying information to our operational 
folks.
    In the technology world, a number of things. In underwater 
port security, we have different sensors that we have been 
developing with the Navy for maritime safety and security teams 
to be using in the ports, a radiological detection program we 
have established for our boarding officers in our MSSTs, as we 
call them.
    Other technology upgrades on our ships that have been 
funded through the Deepwater program allow our major cutters 
now to share our common operating picture and to talk to each 
other over secure means where in the past we were unable to do 
that. Already this capability has led to the great success we 
have had in the current drug arena.
    The connection between our traditional missions and 
homeland security, when you are out on the water you are out on 
the water collecting information. That presence provides you 
with a wealth of information. So whether we are out there doing 
a search-and-rescue case or doing a counter-drug mission, your 
presence there allows you to have a better visibility of the 
maritime domain.
    Mr. Reichert. Thank you.
    Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Admiral, traditionally, the bread-and-butter issues of the 
Coast Guard were search and rescue, aid to navigation, law 
enforcement, fishery law enforcement, et cetera; and I the fear 
that since 9/11 and the homeland security and terrorism era in 
which we live--I hope I am wrong about this, Admiral--but I 
hope these bread-and-butter issues are not being compromised 
too unfavorably.
    I think the Coast Guard, probably more than any other armed 
services, are continually asked to do more with less. I think 
you do a pretty good job at accomplishing that.
    You may have touched on this with the chairman, but I do 
not believe you did; and I am coming here from compromising the 
bread-and-butter issues.
    Six of the Coast Guard's 110-foot patrol boats are now 
deployed in the Persian Gulf in support of Operation Iraqi 
Freedom. Prior to their deployment, these vessels were 
primarily deployed to enforce fisheries laws in the United 
States' waters.
    Let me put a three-part question to you, Admiral. What 
steps have the Coast Guard taken to compensate for the 
temporary loss of these reallocated assets, A? B, what areas 
are being affected by the relocation of these assets? And, 
finally, how has the unavailability of these vessels affected 
the Service's ability to carry out the law enforcement missions 
in these areas?
    Admiral Sirois. Congressman, as I mentioned earlier, with 
the new assets that Congress has provided since 9/11, the 
resource hours dedicated to all our missions is at or above the 
pre-9/11 operational tempo. So in fiscal year 2006 we will be 
at or above in all our mission areas the operational tempo that 
we had prior to 9/11.
    The six boats in the Persian Gulf are there supporting the 
U.S. Navy as part of our national defense mission. How we are 
making up for those op hours, we have acquired or the Navy has 
loaned to the Coast Guard five 179-foot patrol boats that we 
are running. Two of them are in Pascagoula, Mississippi; and 
two of them are in San Diego. We have four. We will get one 
more at the end of the summer. They are running at much higher 
op tempo than our 110 patrol boats. We are making up a lot of 
the hours because we have five loaned boats to the Navy to make 
up those hours.
    We also have new 87-foot patrol boats that have been put 
into service. I do not know the exact number but probably 10 to 
20 since 9/11. So those boats are picking up the slack that we 
lose from those 110s.
    Mr. Coble. How many 110 footers in the fleet?
    Admiral Sirois. Forty-nine, sir.
    Mr. Coble. Forty-nine?
    Admiral Sirois. Forty-nine.
    Mr. Coble. So six of those 49 are in the Persian Gulf?
    Admiral Sirois. Yes, sir.
    Mr. Coble. I yield back. Thank you, Mr. Chairman.
    Mr. Reichert. Thank you.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. Welcome, Rear admiral.
    I have visited the Oakland facility quite a few times since 
I have been in office, and I have always been amazed and 
impressed with the Coast Guard's understanding of interagency 
cooperation. Then, after 9/11 happened, it appeared that the 
Coast Guard had the model to put forth in order to protect our 
95,000 miles of coast line and hopefully that interagency model 
continues to operate and it has been escalated to a higher 
level.
    On my last visit a couple of months ago, I understood that 
you have had a couple of war games. I was just curious what 
those war games brought forth in terms of needs, and I would 
not mind you reiterating your need for assets that you are 
going to need because it appears that prior to 9/11 your asset 
situation was pretty dismal and you were cannibalizing existing 
vessels in order to maintain others and that is not the kind of 
way that I like to see our Coast Guard operate, especially post 
9/11.
    Having increased your--or expanded your scope of 
responsibilities, going from under DOT to Homeland Security, 
the concern of this committee was that you have an officer high 
enough in the hierarchy so that they can impact decision making 
in terms of budget that would eventually turn out to be more 
assets that are needed in your Service.
    Can you comment on those two points: What kind of needs 
became apparent when you did your war games and what is it that 
you need? Then, also, the increase in budget based upon the 
increased needs and the assets that you will need to be able to 
do your job optimally. Because, in terms of homeland security, 
whether there is drug interdiction or immigration or whatever, 
they all seem to lace in together in your network for search 
for weapons of mass destruction. They all seem to be connected 
in my mind.
    So--and perhaps you could comment on whether Homeland 
Security and/or the Coast Guard has done a threat analysis in 
terms of homeland security. What are those points of interest 
for us in terms of the outcome of a threat analysis, if it in 
fact has been done? If it has not been done, I would like to 
know that, too.
    Thank you, Mr. Chairman.
    Admiral Sirois. Thank you, Congressman.
    I do not know the exact number, but our budget since 9/11 
has increased in the order of 40 to 50 percent, and I can get 
you the specific number. But I can assure you we are no longer 
cannibalizing aircraft and boats and ships parts since the 
great infusion of funds for those assets.
    How much budget? The President's request for 2006 goes a 
great way towards starting to acquire new assets through our 
Deepwater program in support to other programs. It includes 
more small boats, more patrol boats. So we would ask you to 
support that budget. It will go a great way towards helping us 
close some of those readiness gaps.
    Threat analysis, yes, we have done threat analysis. All 
ports, there has been threat assessments done for all ports. I 
cannot discuss specifics here, but we could get you that 
information on how we do our threat analysis and then our risk 
analysis and how we rate each port based upon that.
    [The information received follows:]

        The Coast Guard budget has increased approximately 60% between 
        fiscal year 2001 and fiscal year 2005.

    Mr. Honda. Mr. Chairman, if I may, through the Chair, given 
that threat analysis for different ports, it would be of 
interest to me what assets you are going to need in order to 
address those shortcomings in the different ports and whether 
there is an articulation between the Coast Guard, the Port 
Authority, local law enforcement, so that there is a seamless 
cooperation and communication in order to make sure that the 
assets are--the infrastructure is safe.
    In Oakland, I understand that if there is any trauma in 
Oakland relative to the channel or to the rail that it can 
affect over 60 percent of our economy in this country; and I 
understand also that 60 percent of all goods that go to Chicago 
come from Oakland and its rail system. So there is a 
possibility of creating a situation of mass disruption, which 
is probably more pervasive than anything that can happen. So I 
would be interested in what kind of technology, what kind of 
integration in terms of cooperation with the other law 
enforcement agencies that are available. If you have that 
report, I would love to see it, if it is not classified.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] T2502.002
    
    Admiral Sirois. Of course, the solution is multifaceted. It 
is harbor facilities and policemen walking the beat. It is 
boats on the water. It is a whole number of things that go into 
making the port and the facilities secure. We work very closely 
with our partners in law enforcement and the industry through 
our maritime security committees in each port to address just 
these things. If a facility is more secure from its own 
physical security, that requires less patrolling.
    So we have to balance all of those. That is how we come up 
with what we need on the Coast Guard side of the equation to 
reduce the risk in each port.
    Mr. Reichert. Mr. Honda, do you have anything further?
    Mr. Honda. If the chairman would give me permission for one 
quick one, in the transport of these goods that come across in 
these tankers that come across the waters, I understand that 
the percentage of cargo that is examined is not very high. Can 
you comment on that?
    Admiral Sirois. The containers are the responsibility of 
Customs and Border Protection, although we work very close with 
them on screening ships' cargo and people before the ship is 
allow to come into port. But the contents of the container, 
that is the Customs and Border Protection responsibility.
    Mr. Honda. Are you comfortable with the level of security 
that seems to be out there as a part of the team? I know it is 
part of the Customs, but from what you know, would you feel 
comfortable with the level of security that we have in terms of 
our understanding what is in those containers?
    Admiral Sirois. We will never have 100 percent knowledge, 
but there are a number of new initiatives in place and under 
way started by the DHS under Customs, you know, to partnerships 
with industry where the containers get looked at overseas 
before they are loaded and then they are certified by Customs. 
So more and more of these partnerships and these procedures 
where we know what goes in the container is going to help 
assure us of the security of that container. So there is a 
number of initiatives under way, but I am not sure we will ever 
get to 100 percent. But, of course, that would be a great goal.
    Mr. Honda. Then I conclude that you are saying that I am 
not really that comfortable yet? You do not have to answer 
that.
    Admiral Sirois. I am more comfortable today than I was on 
9/11.
    Mr. Reichert. Thank you, Mr. Honda.
    Mr. Fortuno.
    Mr. Fortuno. Thank you, Mr. Chairman.
    Admiral, I want to tell you I flew with some your men and 
women recently over the Mona Passage, and it was quite an 
experience. I commend you for the men and women you have 
working in Puerto Rico as we speak.
    I left, however, with a concern. I was supposed to fly in a 
helicopter, and I flew on a plane instead. I inquired further 
about it, and I was told that there is some indications that 
Members of Congress should not fly in some of those 
helicopters. Are those the HH-65 that we were talking about 
perhaps?
    Admiral Sirois. You are saying that some Members of 
Congress should not be flying on it? Is that what you are 
saying?
    Mr. Fortuno. All Members of Congress, not just some. At 
least I was told that it would be preferable that I fly on a 
plane as opposed to--and, again, it was quite an experience I 
must say. But it was indicated to me that it would be better--
because I inquired further. I must say they did not volunteer 
that information. I inquired further as to why we were not 
using a helicopter, and they said it would be better that we go 
on a plane. Could that be possible it was an HH-65, by any 
chance?
    Admiral Sirois. Most likely.
    Mr. Fortuno. Most likely.
    I have a question. What percentage of your patrols in the 
Caribbean region are carried out in conjunction with the HITRON 
helicopters that you mentioned earlier?
    Admiral Sirois. The HITRON helicopters?
    Mr. Fortuno. Yes.
    Admiral Sirois. We only have eight of them, and two to 
three are deployed at any time. So we always have one in the 
Pacific and one in the Caribbean.
    Mr. Fortuno. So they are moving around?
    Admiral Sirois. Yes.
    Mr. Fortuno. They go out of Florida and out of Puerto Rico 
and so on and so forth? They move around, would you say that?
    Admiral Sirois. We deploy them on ships.
    Mr. Fortuno. On ships?
    Admiral Sirois. Yes.
    Mr. Fortuno. Okay. I also have a question, and it was 
something that came up after we flew. I visited some of the 
holding facilities for illegal migrants in the western part of 
the island. In talking with some of the men and women there, 
they told me that they have recently seen an increase in Middle 
Eastern and Asian illegal migrants coming through the Caribbean 
region, especially Puerto Rico and the U.S. VI. Could you 
comment on this?
    Admiral Sirois. I know that Chinese migrants have been--my 
last tour in the Caribbean on a ship was in 1988 and 1990, and 
we picked up Chinese migrants then coming across from the 
Dominican Republic. Middle Easterners, there may be onesies, 
twosies coming through the Caribbean that we have seen. We have 
seen several in the eastern Pacific coming out of Ecuador into 
Guatemala but no great numbers coming through Puerto Rico.
    Mr. Fortuno. Someone not from the Coast Guard--it was ICE 
personnel--but they told me earlier this year that they stopped 
an Afghan national coming through Puerto Rico. Do you have any 
information on that?
    Admiral Sirois. No, sir, but I can find out and get back to 
you.
    [The information received follows:]
    [GRAPHIC] [TIFF OMITTED] T2502.003
    
    Mr. Fortuno. Sure.
    Going back to this new wave of migration that may have a 
connection to a certain degree with our national security, I 
would like you to comment on the new efforts the Coast Guard is 
making in addressing this new wave from Middle Eastern 
countries and Asia.
    Admiral Sirois. It all comes back to information and 
intelligence. That is why we work very closely with Immigration 
and Customs Enforcement and Customs and Border Protection to 
get that information from their agents who are stationed all 
around the Caribbean and elsewhere to alert us to that.
    Mr. Fortuno. If I may go back one second to my first 
question regarding the helicopter in a traditional tactical 
squadron, are you using those missions for other purposes other 
than drug interdiction as well?
    Admiral Sirois. This past year we did use some of the 
HITRON helicopters to support the national security events at 
the Democratic National Convention and the Republican National 
Convention.
    Mr. Fortuno. But that is about it? So it is mostly for drug 
interdiction?
    Admiral Sirois. The HITRON squadron was formed for counter-
drug interdiction.
    Mr. Fortuno. And mostly in the Caribbean and the Pacific?
    Admiral Sirois. That is correct.
    Mr. Fortuno. Thank you very much. I yield back.
    Mr. Reichert. Thank you, Mr. Fortuno.
    I have flown on Coast Guard helicopters, so I must be one 
of those Congressmen.
    Mr. Baird
    Mr. Baird. Thank you, Mr. Chairman.
    I thank the Admiral for being here. I appreciate the good 
work you do.
    I represent southwest Washington, the Columbia River bar; 
and I have got to tell you your folks out there are pretty 
gutsy individuals. The professionalism saves the lives of our 
fishermen almost on a daily basis, and we are grateful for it.
    I have some questions about the drug interdiction efforts 
that we are discussing today. It happens that I have got an 
interest in the strategy of interdicting with helicopters and 
other approaches. One of the questions I would have is, it is 
my impression that, apart from the helicopters, that the 
regular vessels you have are not very able to keep up with the 
cigarette boats. The drug runners are using these extremely 
high-speed boats, and your regular vessels cannot intercept 
them. Is that generally a fair portrayal?
    Admiral Sirois. Yes, sir. Neither can Navy ships keep up 
with them.
    Mr. Baird. I understand, however, that there are available 
boats in the market that could keep up with them, particularly 
if sea conditions became rough and these cigarette boats have 
to slow down to much slower speeds. But my understanding is 
that the Coast Guard has been not particularly vigorous in 
pursuing the purchase or acquisition of some of these faster 
patrol boats. Can you enlighten us about that?
    Admiral Sirois. We have deployed and we are deploying more 
of the horizon cutter boats on all of our cutters. These are 
boats capable of 40 to 50 knots. I cannot tell you the sea 
state, but we deploy them 100, 200 miles away from the mother 
cutter.
    Mr. Baird. You can do that? What is the size of those 
vessels?
    Admiral Sirois. Seven meter.
    Mr. Baird. That is a pretty small vessel. That is 21 foot, 
roughly. How long can they stay out on their own?
    Admiral Sirois. Six to 8 hours.
    Mr. Baird. They are only 6 to 8 hours. So if you are a drug 
runner you might want to stay low.
    Admiral Sirois. That is why it is good to have an armed 
helicopter that can stop the go-fasts.
    Mr. Baird. Do you have any sense of the efficacy rate in 
terms of what percentage with the helicopters you can stop the 
go-fast boats?
    Admiral Sirois. They are close to 95 percent effective.
    Mr. Baird. In other words, if you understand there are go-
fast boats running in the area, what is the range of the 
helicopters from the mother vessel?
    Admiral Sirois. Those helicopters, I would say a hundred 
miles.
    Mr. Baird. My question would be, I guess I would be 
interested and maybe we could talk further about this at some 
point, but I would be interested in a cost-benefit analysis of 
putting a somewhat larger, higher-speed vessel out there, 
something that could go 40 knots but is more in the 80-foot 
range and could be out in the sea for 5 to 8 days with a larger 
boarding crew and could chase these guys down in higher sea 
conditions. Maybe we could talk about that at some point.
    Admiral Sirois. I would like to talk about it.
    It is a time-distance problem. Everyone thinks the distance 
from San Diego to Ecuador is very small on the map, but it is a 
7-day transit for our ships and Navy ships. So if you had an 
80-foot vessel, unless you had an oiler down there to resupply 
it, you would be running back and forth to port all the time.
    Mr. Baird. I am familiar with some vessels that can stay in 
the open water for at least a week with full accommodations for 
crew, go 40 knots in fairly good sea conditions. I would be 
interested in talking about that with you further.
    Related to that--
    Mr. Filner. Mr. Baird, if you would yield for a second, we 
have authorized in the last several years for the Navy to lease 
another HITRON squadron to intercept these, and they just have 
not done it, and I do not know why. According to the Admiral's 
testimony today, they have three of these helicopters deployed 
on any given day, three for the whole United States. There is 
something wrong here.
    I agree with you that we have to look at the kind of 
analysis that you are doing. The Admiral testified we have a 95 
percent effectiveness rate with these helicopters. We have 
eight of them for the whole country, three deployed on any day. 
We have authorized another squadron for the west coast, and 
they just have not done it. I just do not know why.
    Mr. Baird. May I follow up with one last, related question?
    When we talk about this, helicopters are fine. My 
understanding is they fly around and shoot them out with high-
speed rifles. Is that right? Fifty-caliber sniper rifles?
    One of the questions is, who boards them at that point? And 
the other thing is, it seems to me the helicopter is limited in 
its potential. If you have a boat in the water, its ability to 
help vessels in distress, its ability to do water-based search 
and rescue, recovery, et cetera, it seems to me--while the 
helicopters have a function, it seems to me to have some assets 
on the water makes some sense. Again, we can discuss it 
further.
    But, related to this, a tremendous amount of the drugs 
coming into our country are traveling up the coast through the 
Caribbean in go-fast boats on both sides of the canal, 
basically. It seems to me we ought to help some of our foreign 
partners and their Coast Guards. I am thinking of Costa Rica 
and other countries that would dearly love to have some of 
these vessels work in partnership with us.
    To what extent has our Coast Guard or our Navy explored 
working with our State Department to help make available some 
of these vessels to our friends and allies who suffer from 
these challenges?
    Parenthetically--I will put this into context. We talk 
about a billion dollars going to Columbia for attack 
helicopters to spray coca, etc. Gosh, I would sure much rather 
intercept these boats coming through the water and not deal 
with all the other issues that have gone on in Columbia, et 
cetera. To what degree is our Coast Guard working with Coast 
Guards from other countries?
    Admiral Sirois. We do that every day. In fact--you 
mentioned Costa Rica. Their fleet of patrol boats are retired 
Coast Guard patrol boats that the State Department turned over 
to them.
    Mr. Baird. My understanding is they are dreadfully slow, 
their maintenance costs almost exceed the value of the boats 
themselves, and a guy with a fast kayak could outrun them on a 
bad day.
    Admiral Sirois. I think the 82-footers can do about 20 
knots, but they are not a 50-knot boat.
    Mr. Baird. I understand their maintenance costs down there 
are just dreadful. Our State Department pats itself on the back 
and gives ancient boats to these countries and say, here is a 
wonderful boat you caught, and they are stuck with the 
maintenance costs.
    I appreciate the intent, but I am not sure the impact is as 
desirable, and I want to underscore this, the impact on 
stopping these drugs coming into our country. It is not for me, 
about making an appearance, that we are sending boats to 
another country. What it is for me about is trying to protect 
our communities. And if we send inefficient vessels to these 
countries and costly inexpensive vessels, we are not ultimately 
solving the mission; and the points that have been raised by my 
colleague, Mr. Filner, about people getting through are a 
problem.
    I yield back the balance. Thank you, Mr. Chairman.
    Mr. Reichert. I would like to kind of continue on with Mr. 
Baird's thought but a little bit different line. It is still 
around the partnership and working with other agencies line of 
thinking.
    First of all, in the area of threats and risk assessment, 
is the Coast Guard a member of the Joint Analytical Centers 
across the country? I know we have one in Seattle. Do they 
participate? Does the Coast Guard participate in the Joint 
Analytical Center efforts? Offices are usually in the FBI 
offices.
    Admiral Sirois. Is that the Joint Terrorism Task Force?
    Mr. Reichert. Joint Terrorism Task Force is the 
investigative arm of the Analytical Centers.
    Admiral Sirois. We have liaisons at many of those centers. 
We have them at the Organized Crime Drug Enforcement Task 
Forces. Just about every intel organization in Washington has a 
Coast Guard liaison officer now assigned. That facilitates our 
sharing of information.
    Mr. Reichert. One of the threats we experienced, as you are 
aware of in Seattle, is the threats around the ferry system; 
and there was great cooperation between the Seattle Police 
Department and the King County Sheriff's Office and the Coast 
Guard.
    I think that when you are in the process of threat 
assessment and risk assessment it is important to work with the 
locals, and I am certain that you recognize that. But to 
further that partnership and not just be in the process of 
engaging in discussion around intelligence and the sharing of 
intelligence and risk assessment, there are resources available 
in some of those larger police departments and sheriff's 
offices.
    We have been talking about helicopters and boats. I know in 
my old job as sheriff, the Sheriff's Office in King County has 
a helicopter and air support unit with several helicopters. San 
Diego's Sheriff's Office and the Police Department both have 
air support units. I know San Diego and L.A. have an air force, 
I think.
    But have you thought about reaching out and partnering with 
some of those along the coast, some of those larger cities and 
Sheriffs Offices like King County, like San Diego, to have some 
resources that could help you in your--not only in your 
homeland security efforts on the coastal areas but also in the 
areas of your traditional law enforcement responsibilities? We 
have tried to build a partnership like that and found it 
difficult. What are your views on that?
    Admiral Sirois. Partnerships are key to everything we do. 
We are very small. So partnerships are one of the building 
blocks that we use everywhere in all our missions.
    I can't speak specifically to the Seattle area on hard 
examples, but in San Diego there is a joint harbor operations 
center that has stood by the Navy, the Coast Guard, the local 
police, the harbor patrol, the border patrol. They are all on 
this joint operations center; and it is a great example my 
commandant likes to quote as the way to do things on a local 
level.
    Mr. Reichert. I would be interested in following up 
personally with you on a possible partnership that we might be 
able to develop further in King County, if that would be 
acceptable to you. Thank you.
    Mr. Filner.
    Mr. Filner. The joint operations that he mentioned, you may 
want to come down and look at it. It is pretty interesting and 
looks like an effective means of that kind of cooperation.
    Is that the only one, by the way? Is there another one 
existing?
    Admiral Sirois. There is one in the Norfolk area. We are 
working with the Navy right now to establish them throughout 
the country. The Navy is interested in their primary ports, of 
course, but we are building in the future what we are calling 
our sector command centers. And as we are planning for these, 
we are leaving room for our partners in the local area to be 
able to come into those centers.
    Mr. Filner. Just one final comment, Mr. Chairman. I know 
these hearings are broadcast on our internal television, but I 
hope al Qaeda is not watching. I mean, I am far more scared 
than when I walked into the room, I must say, in terms of our 
ability to deal with certainly homeland security.
    When you have these helicopter mishaps 329 times, it says 
here, of what the FAA considers safe, I am not surprised you 
wouldn't want to put a Congressman on that, although maybe a 
Republican Congressman should go. When you have half of your 
110-foot cutters having hull breaches, it says right here; 
every time your high endurance cutters go out, there is some 
sort of engine room failure; 5 percent of the fleet out at any 
given time. I just don't have a lot of confidence that we are 
addressing these things quickly enough or fast enough.
    Here we are, 3, 4 years after 9/11, and we are talking 
about these kind of failures in what has become the front-line 
agency on homeland security. You have a Congress, as I told the 
Commandant several times, that wants to provide the resources 
to deal with this, and yet they are not either being asked for 
or not being given or whatever. But this is not giving me a lot 
of confidence about our effectiveness against outside threats.
    Mr. Reichert. Thank you, Mr. Filner.
    Before we adjourn today, I would like to take a moment to 
recognize a Coast Guard Academy cadet that is in the audience, 
Brendan McKenna. Brendan, do you want to stand?
    Mr. Filner. Just don't get on a helicopter.
    Mr. Reichert. Helicopters are perfectly fine.
    I want to thank all of you for your time this morning and 
thank you for being with us this morning for your testimony. I 
look forward to working with you and discussing some possible 
partnerships in Seattle.
    If there are no further comments, questions or responses by 
our witness, this hearing stands adjourned. Thank you.
    [Whereupon, at 11:10 a.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T2502.004
    
    [GRAPHIC] [TIFF OMITTED] T2502.005
    
    [GRAPHIC] [TIFF OMITTED] T2502.006
    
    [GRAPHIC] [TIFF OMITTED] T2502.007
    
    [GRAPHIC] [TIFF OMITTED] T2502.008
    
                                    

</pre></body></html>
